No. 70 V'36\
In the
Supreme Court of the United States

1

Supreme Court, U.S.
FILED

MAR 1 3 2021
OFFICE OF THE CLERK

Anthony Pappas for Congress,
a political organization created
under Title 52 of the Federal Code
and Anthony Pappas, individually,
Petitioner
-againstJoseph Lorintz, individually and as
Supreme Court Judge of the State of New York;
Henry Kruman; Maria Pappas; TD Bank, N.A.
and the State of New York,
Respondents

Petition for Writ of Certiorari
to the United States Court of
Appeals for the Second Circuit

PETITION

March 12, 2021

Anthony Pappas, Petitioner
24-15 24th Street
Astoria, New York 11102-2827
Telephone: (718) 626-0349

QUESTIONS PRESENTED:

1) Did the Second Circuit Court of Appeals
commit serious error when it affirmed dismissal
of a civil rights action challenging state actor
interferences in a federal election, one that
featured divorce executions upon a congressional
campaign account?

2) Alternatively, did this extraordinary case
seeking timely relief unavailable before the
Federal Election Commission warrant a private
right of action in federal court to remedy
unlawful third-party conversions of federal
campaign funds administered by Petitioner?

TABLE OF CONTENTS

Table of Authorities

1

Opinions Below

1

Jurisdiction

1

Constitution and Statutes

1

Statement of the Case

4

Reasons for Granting Writ

9

Point One: Free Speech Takes
Precedence Over a State Divorce
Case that Corrupts the Integrity
of a Federal Election Thereby
Permitting Recourse in Federal
Court Under 42 USC Section 1983

10

Point Two: Alternatively, Federal
Election Law Permits a Private Right
of Action in this Case.............................

13

Conclusion

20

Appendix

la

Second Circuit Decision filed on December
16, 2020 affirming judgment of the United States
District Court for the Eastern District of New York
dismissing Petitioners’ Verified Complaint............... la

TABLE OF AUTHORITIES

Cases
Bivens v Unknown Agents, 403 US 388 (1971)

11

Colorado Water Dist. v U. S.. 424 US 80 (1979)

14

Cort v Ash. 422 US 66 (1975)

17

Dekom v New York, 2012 NY Slip Op 32310

15

Dombrowski v Pfister, 380 US 479 (1965)

14

Ex Parte Young, 209 US 123 (1908)

14

Ferri v Ackerman, 444 US 193 (1979)

20

Gerstein v Pugh, 420 US 103 (1975)

14

Hayden v Pataki, 449 F.3d 305 (2nd Cir. 2006)

16

In re Von Bulow. 828 F.2d b94 (2nd Cir. 1987)

9

Jackson v Birmingham. 544 US 167 (2005)

18

Kimes v Stone. 84 F.3d 1121 (9th Cir. 1996)

20

Marshall v Marshall. 547 US 293 (2006)

14, 15

Monell v DSS. 436 US 658 (1978)

11

Monroe v Pape, 365 US 167 (1961)

11

Owen v City of Independence, 445 US 622 (1980)....11

Patterson v JP Morgan. 12-cv-2198 (2013)

16

Roe v Wade, 410 US 113 (1973)

14

Snyder v Phelps, 562 US 443 (2011)

11

S. Ct of Virginia v Consumers, 446 US 719 (1980)...... 14
Touche v Reddington, 442 US 575 (1979)

18

United States v McDonnell, 579 US___(2016)

10

Wright v Allstate. 500 F.3d 390 (5th Cir. 2007)

18

Constitution and Statutes
U.S. Amend 1

1, 11
1

U.S. Amend 14
42 USC 1983

2, 11

52 USC 30114(b)

2, 6

Secondary Authority
Ken Stone, Duncan Hunter’s Dad and
Pivotal Letter Pa ved Way for Presiden tial Pardon,
Times of San Diego, December 22, 2020...................

9

Daniel Tokaji, Public Rights and Private Rights of
Action: The Enforcement ofFederal Election La ws,
Vol 44, Indiana Law Review, 114................................ 18

OPINIONS BELOW
The final order, en banc, of the United States Court of
Appeals, affirming the August 26, 2019 judgment of
the United States District Court for the Eastern
District of New York was filed on December 16, 2020.
It is not a reported opinion and is reproduced in the
Appendix at la. An appeal was taken to the district
court order which had adopted a magistrate’s report
and recommendation dated August 2, 2019. A panel
decision was then issued by the Court of Appeals on
October 15, 2020 affirming that order. Appellant,
Anthony Pappas, individually and on behalf of a
congressional campaign, then filed a petition for en
banc review dated November 12, 2020 leading to the
final order now challenged before this Court.
JURISDICTION
The summary order of the United States Court of
Appeals for the Second Circuit was filed on December
16, 2020. Jurisdiction is proper under 28 USC 1254(1).

CONSTITUTION AND STATUTES
The First Amendment provides that “Congress shall
make no law respecting an establishment of religion,
or prohibiting the free exercise thereof, or abridging
the freedom of speech, or of the press; or the right of
the people peaceably to assemble, and to petition the
Government for a redress of grievances.”

1

The Fourteenth Amendment provides in relevant part
that “No State shall make or enforce any law which
shall abridge the privileges or immunities of citizens of
the United States, nor shall any State deprive any
person of life, liberty or property without due process
of law; nor deny to any person the equal protection of
the laws.”
42 USC section 1983, Civil Rights Act of 1871, provides, in
relevant part:
Every person who under color of law of any
statute, ordinance, regulation, custom or usage,
of any state... subjects, or causes any citizen of
the United States or other person within the
jurisdiction thereof to the deprivation of any
right, privileges, or immunities secured by the
Constitution and laws, shall be liable to the
party injured in an action at law.
52 USC section 30114(b) provides, in relevant part:
(1) A contribution or donation described in
subsection (a) shall not be converted by any
person to personal use.
(2) Conversion: For the purposes of paragraph
(1), a contribution or donation shall be
considered to be converted to personal use if
the contribution or amount is used to fulfill
any commitment, obligation, or expense of a
person that would exist irrespective of the
candidate’s election campaign or individual
duties as a holder of Federal office,
including2

(A) a home mortgage, rent or utility
payment;
(B) a clothing purchase;
(C) a non-campaign automobile expense;
(D) a country club membership;
(E) a vacation or other noncampaignrelated trip;
(F) a household food item;
(G) a tuition payment;
(H) admission to a sporting event, concert,
theater, or other form of entertainment
not associated with an election
campaign, and
(I) dues, fees, and other payments to a
health club or recreational facility.

3

STATEMENT OF THE CASE
Petitioners Anthony Pappas and Anthony Pappas for
Congress brought an action in the United States
District Court for the Eastern District of New York on
July 24, 2018 pursuant to the All Writs Act, 28 USC
section 1651 to challenge violations of civil rights and
federal Election Law. As a candidate for Congress in
New York’s 14th district, he sought emergency relief
when his campaign funds were seized through a
property execution issued by a divorce lawyer acting
under authority of a divorce court. He also sought relief
under 42 USC section 1983 to remedy violations of his
federal statutory and constitutional rights.
Petitioner sought emergency relief by way of a show
cause application regarding the first of two notices of
seizure sent to him by TD Bank earlier the same
month. The bank was named in Petitioner’s action in
addition to his divorce judge, opposing lawyer and ex­
spouse because this is where his campaign account had
been opened under its own name and tax identification
number. The latter two defendants were necessarily
named because they actively participated in the
unlawful enforcement actions regarding the campaign
account. The district court was asked to restrain the
seizure of funds until an injunction could be litigated.
Two weeks later, District Court Judge Joanna Seybert
issued a scheduling notice to decide Petitioner’s
emergency application without signing his proposed
show cause order. That process continued without
decision until after Election Day on November 6, 2018.

4

Later that month, Judge Seybert offered the parties an
option of filing motions on the Verified Complaint.
Because of the peculiar delays, and because the
seizures of donated funds could recur during this
campaign and later ones, an original action was filed in
the United States Court of Appeals for the Second
Circuit seeking relief pursuant to Rule 21 of the
Federal Rules of Appellate Procedure.
That original action was brought in the nature of
mandamus but drew upon the full supervisory and
equitable authority of the appeals court to direct a
restraint upon the executions. Relief was denied in a
one page, two sentence order issued on December 21,
2018 “because Petitioner ha(d) not demonstrated that
exceptional circumstances warrant(ed) the requested
relief.” The court cited In re von Bulow, 828 F.2d 94, 96
(2nd Cir. 1987) as its lone authority. Consequently,
Petitioner continued with his civil rights action.
For background on that action, in March, 2018,
Petitioner was endorsed by the Republican Party
committees of Queens and Bronx counties as their
candidate for Congress in New York’s 14th District.
Accordingly, a campaign account was set up to
facilitate the campaign. Petitioner, Anthony Pappas,
opened this account as “Anthony Pappas for Congress.”
Respondent TD Bank was entrusted with the monies
deposited in this account. One month after its creation,
donations began emerging from persons across the
country. The nationwide draw arose unexpectedly
because on June 26, 2018, Alexandria Ocasio-Cortez

5

defeated longtime incumbent Joseph Crowley in the
Democrat primary in the same election district.
The upset victory gained national headlines as the
primary winner proceeded to campaign across the
country with the likes of then presidential candidate
Bernie Sanders. Their joint progressive agenda caused
opponents to make donations to this account for the
prime objective of defeating Ms. Ocasio-Cortez in the
general election. In contrast, few donations arose from
within the 14th District, believed, in part, to be caused
by a voter registration ratio of six-to-one in favor of
Democrats. Petitioner was also a political newcomer.
The contributors donated such monies exclusively for
campaign purposes, and Petitioner was prohibited by
federal Election Law, with certain exceptions, from
applying them for any non-campaign purpose under
penalty of criminal prosecution, see 52 USC 30114(b)
reprinted above. However, because of the divorce case,
still ongoing after more than fourteen years, Petitioner
was subjected to severe impositions which impeded his
candidacy, including a restraint on all accounts, direct
or indirect, for equitable distribution of marital assets.
The divorce case was filed against Petitioner in
December, 2004 and the restraint on accounts was
issued on December 12, 2013 by state divorce Judge
Hope Schwartz Zimmerman. This restraint occurred
after Petitioner filed a civil rights action, Pappas v
Zimmerman, et. al. (Pappas I) in the same district court
in August, 2013. It challenged, inter alia, a gag order
and retaliatory impositions for the filing of complaints
before various state authorities since 2010.
6

Respondent Henry Kruman was one of the targets of
those complaints along with his client, Respondent
Maria Pappas, who was allowed to assert false
narratives adopted by the divorce judges assigned since
2008. Since 2013, they have issued restraining notices
on individual and joint accounts belonging to Petitioner
and third parties including his adult children.
Judge Zimmerman denied motions and requests by
Petitioner to lift the overbroad restraints or limit their
scope between the years 2014 and the time of her selfrecusal in 2017. Her replacement, Respondent Judge
Lorintz denied motions and requests to do the same.
This left Petitioner with only a partial salary after
garnishment. More bizarre, it created a condition of
having restrained assets unavailable for payment of
the unsatisfied portion of judgment.
The unpaid divorce judgment was a substantial
amount approximating one million dollars accruing
interest at 9% annually. National and local media
exploited that fact during the campaign after making
inquiries into Petitioner’s divorce case. Without a clear
understanding, they defamed the candidate as a dead
beat depriving his ex-spouse of her entitlements.
Petitioner’s ability to defend against such public
accusations was further impaired by the referenced gag
order imposed in 2011 by a prior assigned divorce
judge, Stanley Falanga. That order has remained
intact without modification or limitation by any of the
judges assigned thereafter. In addition, Judge Lorintz
has done little or nothing to expedite the judgment
7

satisfaction process. Petitioner has maintained that
this protracted interest penalty comprises yet another
punishment for his public criticisms.
The forementioned actions and inactions were asserted
to be well beyond the legitimate scope of state
proceedings or a good faith divorce process and far
distinct from the events which formed the subject
matter behind the federal court action which Petitioner
brought in 2013. Stripped of their formalities they
constituted a pretext to disguise the grim reality of
unlawful retaliation by a state court for the exercise of
free speech during a congressional campaign. That
campaign could not be a subject for decision in 2013.
These and other draconian impositions were made in
retaliation for Petitioner’s exposure of corruption in these
courts. Such conclusion was easily made by the proximity
of impositions to the public criticisms coupled with their
extreme and irrational nature. The impositions also placed
volunteers at risk of third-party contempt of the gag order
and a reluctance to be identified with the campaign.
Campaign volunteers dwindled to very few by Election
Day, and donations failed to exceed $15,000. All
respondents have continued to withhold and/or convert
the subject campaign funds to the present day even
after full notice was provided by service of the original
action in July, 2018. They have essentially exploited a
Federal Election Commission which lacks a statutory
procedure to act timely on complaints such as this one.
That Commission was otherwise burdened by a lack of
quorum to act during periods relevant to this case.
8

REASONS FOR GRANTING WRIT
A writ is crucial in this extraordinary case to establish
precedent in matters of campaign financing and to
prevent state interference in federal elections. At a
time when election integrity has dominated national
discourse, this case presents an opportunity to show
that our federal courts will take relevant action in the
face of public criticism. A clear theft of campaign funds
occurred with the complicity of a state judge, divorce
lawyer, regulated bank and private co-conspirator. 1
With proven bias existing in his state divorce case and
discovery deprivations in the federal actions below,
Petitioner remains unable to learn about bank
practices that could impact similar victims. Such bias
was wholly disregarded despite the ongoing abuses
employed to complete the thefts. Also disregarded was
the victims’ position that these un-remedied thefts
would harm future election prospects. In that context,
dismissal of Petitioners’ action was clearly improper on
at least the issues of prospective declaratory and
injunctive relief sought in the Verified Complaint. As
1 The thefts in this case were regularly compared in court filings to the thefts of
campaign funds surrounding the convictions of former California Congressman
Duncan Hunter and his wife Margaret. The Hunter case in federal court featured
donated monies used for personal expenses such as family vacation trips, theater
tickets, gaming platforms and other lavish conduct resulting in more than $37,000
in overdraft bank charges. Ultimately, both Hunter and his then estranged wife were
pardoned by former president Donald Trump, see Ken Stone, Duncan Hunter’s
Dad and Pivotal Letter Paved Way for Presidential Pardon, Times of San Diego,
December 22, 2020. During that prosecution, the misappropriations here were
effectively concealed, disregarded or excused through inaction, procedural delays
and technical obstacles, setting the precedent that criminal and civil violations of
federal election laws can be selectively enforced based on political influences. In
essence, satisfaction of a divorce judgment was allowed as a campaign expense.
9

the Court of Appeals recognized, such relief is not
foreclosed by sovereign or judicial immunity.
For the same reasons, preclusion rules did not form a
final alternative for dismissal after various defenses
were analyzed seriatim. Petitioner is maintaining here
that the en banc and panel decisions of the Court of
Appeals together with the district court order and
magistrate report arose from a fear of public clamor.
This then eclipsed a duty to assure justice for victim(s)
having no political significance. On this basis alone, the
decisions below should be reversed under the Civil
Rights Act of 1871 regardless of whether a private right
of action exists under the Federal Election Law. This is
because the scope of law and facts among the civil
rights claims is much broader than the issues strictly
related to federal election law campaign financing.
Point One: Free Speech Takes Precedence Over a
State Divorce Case that Corrupts the Integrity of
a Federal Election Thereby Permitting Recourse
in Federal Court Under 42 USC Section 1983.
In United States v McDonnell. 579 US
(2016), this
Court, by unanimous decision, vacated a federal
bribery conviction of former Virginia Governor Robert
McDonnell based on First Amendment principles.
Although this was a criminal prosecution, the
interpretation of an election law provision was at its
core. That provision, section 201(b)(3) was deemed to
be overbroad in its prohibition of “official action” that
could be considered a form of bribery or election
influence. On balance, constitutional principles were
properly given priority over legislative drafting issues.
10

In contrast, despite uncontroverted facts regarding the
seizure of federal campaign monies, still retained to the
present day, Respondents jointly assert that the civil
rights violations at issue in this case are foreclosed by
various technical, prudential and jurisdictional
obstacles. If true, taken together, they extinguish any
recourse under federal law and the Constitution.
Section 1983 of Title 42 of the United States Code
provides as follows:
Every person who under color of law of any
statute, ordinance, regulation, custom or usage,
of any state... subjects, or causes any citizen of
the United States or other person within the
jurisdiction thereof to the deprivation of any
right, privileges, or immunities secured by the
Constitution and laws, shall be liable to the
party injured in an action at law.
Known as the Civil Rights Act of 1871, this federal
statutory cause of action lay dormant for ninety years
until this Court found that the congressional
enactment meant what it stated in the landmark case
of Monroe v Pane. 365 US 167 (1961). Since then, this
Court has expanded the reach of this statute to civil
rights actions against government officials and
municipal corporations, Bivens v Six Unknown
Named Agents. 403 US 388 (1971); Monell v
Department of Social Services. 436 US 658 (1978);
Owen v City of Independence. 445 US 622 (1980). In
each case, the congressional goals behind our civil
rights laws were deemed superior to state interests.

11

To be sure, in Snyder v Phelps, 562 US 443 (2011),
Chief Justice John Roberts emphasized that “[S]peech
on ‘matters of public concern’...is ‘at the heart of the
First Amendment’s protection,’ ” citing Dun &
Bradstreet v Greenmoss Builders. 472 US 749,
758759 (1985). He also described this right as crucial
to self-governance:
The First Amendment reflects “a profound
national commitment to the principle that
debate on public issues should be uninhibited,
robust, and wide-open,” citing New York Times
v Sullivan. 376 US 254, 270 (1964). That is
because “speech concerning public affairs is
more than self-expression; it is the essence of
self-government,” citing Garrison v Louisiana.
379 US 64, 74-75 (1964). Accordingly, “speech
on public issues occupies the highest rung of
the hierarchy of First Amendment values, and
is entitled to special protection,” citing Connick
v Myers. 461 US 138, 145 (1983).
There can be no dispute that Petitioner was exercising
these crucial rights of self-governance when he
properly filed a candidacy for Congress and further,
that he relied on free speech to succeed with that
candidacy. Yet one can search in vain throughout the
eight-page decision of the Court of Appeals to find no
mention of these overriding principles. Instead, facts
and proceedings are carefully crafted to pigeon-hole
this extraordinary case into the technical defenses
raised by these respondents. They rest on a position
that the federal district court below lacked subject
matter jurisdiction for a decision on the merits, thereby
12

leaving victims to lose trust in our courts. This
invariably leads to violence and self-help remedies, an
all too often common occurrence this past year. The
decisions below go further to promote or excuse acts of
a criminal nature since the subject campaign account
contained third party funds which could form no part
of a marital estate or divorce court jurisdiction. 2
The Court of Appeals managed to circumvent or conceal
this “elephant in the courtroom.” The drafting
technique used to do this is brazen in this case. By
exploiting an array of obstacles to federal court
jurisdiction, the courts below effectively repealed or
hopelessly diluted important enactments of Congress
as applied to Petitioner and victims similarly situated,
more specifically, 42 USC 1983 and 52 USC 30114(b).
A key example of this folly is the court’s invention of a
“domestic relations abstention” to replace a “domestic
relations exception” which it invalidated recently in
this very context of federal question jurisdiction,
Decision pg. 5. There is no authority for this invention,
and it runs contrary to the strong admonitions of the
Supreme Court against the abuse of abstention
practices to dismiss meritorious claims, see i.e.
unanimous decisions in Exxon Mobile v Saudi
Industries. 544 US 280 (2005), Marshall v Marshall.
547 US 543 (2006) and Sprint Communications v
2 In a shocking departure from reality, the Second Circuit re-characterizes
Petitioner’s case as one challenging a mere “admonition” against the
misappropriation of campaign funds under the Election Law, see Court of Appeals
decision at pg. 7, App’x at pg. 12. If that was a correct interpretation of the
provision at issue, 52 USC Section 30114(b), then the investigations, prosecutions
and convictions of former Congressman Duncan Hunter, Michael Cohen and others
would arguably be wholly unjustified, see footnote 1, supra.
13

Jacob. 571 US 69 (2013). In Marshall, our high court
emphasized that “the Ninth Circuit had no warrant
from Congress, or from decisions of this Court, for its
sweeping extension of the probate exception.” Writing
for the Court, Justice Ginsberg opened her opinion with
an excerpt from Chief Justice Marshall in Cohens v.
Virginia. 6 Wheat, 264, 404 (1821), to wit:
“It is most true that this Court will not take
jurisdiction if it should not; but it is equally true,
that it must take jurisdiction, if it should .... We
have no more right to decline the exercise of
jurisdiction which is given, than to usurp that
which is not given.....”
On this premise, decisions were fashioned to permit
aggrieved victims to find refuge in our federal courts as
the principal forum for vindicating basic federal rights,
see Le^ Colorado River Water District v. United States.
424 U.S. 800, 817 (1976)(federal courts are bound by a
“virtually unflagging obligation ... to exercise the
jurisdiction given to them”); Ex Parte Young, 209 US
123 (1908); Gerstein v. Pugh, 420 U.S. 103 (1975);
Supreme Court of Virginia v. Consumers Union. 446
U.S. 719 (1980); Dombrowski v. Pfister, 380 US 479
(1965); Roe v. Wade. 410 US 113 (1973). This case rests
squarely within the scope and goal of these cases.
Point Two: Alternatively, Federal Election Law
Permits a Private Right of Action in this Case.
Alternatively, respondents argue that the same rights
in this extraordinary case are effectively extinguished
under Federal Election Law given the exclusive
14

jurisdiction claimed to exist over them by the Federal
Election Commission. They assert that no private right
of action exists for a candidate or interested party to
achieve the congressional goals behind this law. Hence,
in this case at least, such goals can never be achieved.
This is because that commission lacks a timely
procedural mechanism under statute to address a time
sensitive complaint such as this one and is otherwise
burdened by a lack of quorum to act during periods
relevant to this case. Complicating matters further, the
Commission lacked jurisdiction over a state court and
those acting under its authority. Federal court then
became the proper or exclusive avenue for recourse.
In its select and cursory opinion, the Second Circuit
adopted the position of Respondents and district court
by asserting that a private right of action does not exist
under the Federal Election Law. However, no case on
point was raised anywhere in that decision or dismissal
motions before the district court, making this a case of
first impression and ideal for high court adjudication.
A catalogue of cases raised and distinguished in the
motions and cross motion below begins with Dekom v
New York (no citation found). This was a challenge to
state election requirements relating to the gathering
of signatures (designating petitions) to qualify for
placement on the ballot. It had nothing to do with a
theft of campaign funds from a federal election
account by a divorce court, lawyer and bank.
Petitioner submits that other aspects of that case
actually support his claims in the pleadings. For
15

example, standing and sovereign immunity defenses
were denied in that case, and there was nothing of the
sort of invasiveness involving a theft of campaign
funds needed to succeed in a congressional race.
In Hayden v Pataki. 449 F.3d 305 (2nd Cir. 2006) a felon
was challenging voter disenfranchisement under state
law based on his status as a criminal. The only
parallel here is the status of Respondents as potential
criminals. Petitioner’s case is highly distinct insofar
as his exercise of speech and candidacy rights are at
the core of First Amendment values. There is no
“compelling state interest” in promoting criminal
behavior simply to satisfy a longstanding divorce
judgment. Core rights under the Constitution prevail
over any scheme to deny a proper remedy here.
In the next case relied upon by Respondents,
Patterson v JP Morgan Chase Bank. 12-cv-2198
(SJF/GRB (2013), the outcome was based on a seizure of
a private bank account having nothing to do with free
speech, federal election or a campaign account. The
type of agreement relied upon in Patterson and by the
bank here does not authorize a theft of funds placed
in a separate account having a distinct purpose under
federal law. The facts are easily distinguished to
make the bank a joint state actor in an intentional
and unlawful conversion of funds especially after
notice was clearly provided.
Finally, as a general proposition, Respondents assert
that Petitioner was not an aggrieved party because he
continued to exercise his free speech after the seizure
of third-party funds. This is an utterly absurd

16

argument which has no application here because it is
tantamount to voiding the First Amendment.
Respondents are effectively stating that in order to
show a constitutional violation, Petitioner should
have resigned or suspended his campaign without any
further speech and commentary about the election at
the point when the funds were seized. They are also
claiming that Petitioner should have relied on an
arduous legal process before the FEC, divorce court,
this Court or all three to avoid waiver of crucial rights
or an erroneous choice of forums.
The Petitioner did, in fact, test such recourse with an
exigent application in the district court three weeks
after seizure. As stated, on the state level, such resort
had already been tested to no avail by motions and
requests before Judge Zimmerman and/or her
replacement, Judge Lorintz, to remove or modify the
overbroad restraint and gag orders. These events
occurred in 2016 and 2017 well after the dismissal of
the 2013 action, Pappas I. That outcome was
excessively relied upon to dismiss in the alternative.
In analyzing congressional intent behind a private
right of action, the Supreme Court has gone through an
expansive and then restrictive phase over the years. In
Cort v Ash. 422 US 66 (1975), a four-factor test was
established to determine whether a statute created a
private right. They are: 1) whether the plaintiff fell in
a class “for whose special benefit the statute was
enacted” 2) whether there was an indication of an
intent to deny or create such a remedy; 3) whether the
remedy was consistent with the underlying purpose of

17

the legislation; and 4) whether the subject of the cause
of action was one traditionally reserved to state law.
This test was modified in more recent decisions to place
the focus more squarely on whether Congress intended
to provide for a cause of action in favor of a plaintiff,
Touche. Ross & Co. v Redington, 442 US 560, 575
(1979); Wright v Allstate. 500 F. 3d 390, 395 (5th Cir.
2007). Hence, Petitioner here will address the four
factors together on the issue of intent.
The campaign funds at issue in this case were intended
to facilitate free speech and debate on crucial federal
issues. They were not monies that came into a marriage
that ended with a 2004 divorce action and decree
several years later. Under no set of circumstances could
it be argued that Maria Pappas or her divorce lawyer
had any entitlement to these donated funds. Hence it
cannot be said that their conversion was proper.
The election provisos raised here had a prohibitive
aspect to it insofar as conversion by “any person” or
misuse by the candidate was expressly made unlawful
with both civil and criminal consequences, see i.e.
Jackson v Birmingham Bd. Of Educ.. 564 US 167, 173
(2005)(Title IX implies a private right of action because
it prohibits sex discrimination). The Election Law
expressly prohibits third parties from achieving
through the back door that which cannot be done by the
candidate or his campaign. Interference with the
federal election process is at the heart of this Petition.
Had Petitioner withdrawn those funds and applied
them to his divorce judgment as respondents did, he
18

would assuredly have been prosecuted as a criminal not
unlike Michael Cohen and others engaged unlawfully
in campaign activity. Under Title 52, section 30114, the
statute cited in the pleadings, campaign donations into
such a bank account are regulated by “Permissible
uses” and “prohibited use.” Satisfaction of a divorce
judgment is neither expressly permitted nor expressly
prohibited, but “conversion” of such funds by anyone is
prohibited and may constitute a criminal violation.
Petitioner would not be able to timely rectify such a
theft during the four months remaining in his
campaign when the first July, 2018 levy was made. His
filing of a complaint with criminal and prosecuting
authorities would not save his campaign. Similarly, the
Federal Election Commission would not be able to act
timely given the complaint and administrative process
to obtain a civil remedy. Instead, Congress imposed a
duty upon a candidate and committee to safeguard
such funds. That, in turn, translated into a private
right of action properly taken before the district court.
A private right of action is backed by the overall scheme
of Title 52 and the limitations of the Federal Election
Commission. The statute’s purpose is to facilitate
federal election campaigns, candidacies and voting
rights. Its provisions make clear that use of campaign
funds for a private or non-campaign purpose subjects
the “person” doing so to liability. “Person” is broadly
defined to include individuals, corporations and diverse
organizations. All those named here fall within that
definition found at 52 USC section 30101(9). It is a term
not limited to candidates or their campaign staff.

19

Hence a private right of action is not only allowed but
it is imperative to achieve the goals of Congress here.
As stated, the divorce lawyer and his client were acting,
in substance, in an enforcement capacity and not as
lawyer or client, see i.e. Ferri v Ackerman, 444 US 193,
202, n. 19 (1979); Kimes v Stone. 84 F.3d 1121, 1128
(9th Cir. 1996). This Court should not only find a private
right but it should also rely upon a more compelling
right under the Constitution. Otherwise neither would
afford a remedy to encourage political speech and
candidacy, see Daniel Tokaji, Public Rights and Private
Rights of Action: The Enforcement of Federal Election
Laws, Vol 44, Indiana Law Review, 114.

CONCLUSION
By reason of the foregoing, Petitioner asks this Court
the Grant a Writ of Certiorari on this case together
with such other relief as may be just and proper.

Respectfully submitted,

March 12, 2021

Anthony Pappas, pro se

20

No.

In the
Supreme Court of the United States
Anthony Pappas for Congress,
a political organization created
under Title 52 of the Federal Code
and Anthony Pappas, individually,
Petitioner
-againstJoseph Lorintz, individually and as
Supreme Court Judge of the State of New York;
Henry Kruman; Maria Pappas; TD Bank, N.A.
and the State of New York,
Respondents

Petition for Writ of Certiorari
to the United States Court of
Appeals for the Second Circuit

APPENDIX

March 12, 2021

Anthony Pappas, Petitioner
24-15 24th Street
Astoria, New York 11102-2827
Telephone: (718) 626-0349
1

TABLE OF CONTENTS

Table of Authorities

1

Opinions Below

1

Jurisdiction

1

Constitution and Statutes

1

Statement of the Case

4

Reasons for Granting Writ

9

Point One: Free Speech Takes
Precedence Over a State Divorce
Case that Corrupts the Integrity
of a Federal Election Thereby
Permitting Recourse in Federal
Court Under 42 USC Section 1983

10

Point Two: Alternatively, Federal
Election Law Permits a Private Right
of Action in this Case........................

13

Conclusion

20

Appendix

la

Second Circuit Decision filed on December
16, 2020 affirming judgment of the United States
District Court for the Eastern District of New York
dismissing Petitioners’ Verified Complaint............

la

2

